HHS/OIG-Audit--"Review of Costs Claimed by Eddy Visiting Nurse Association of the Capital Region, (A-02-97-01026)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Costs Claimed by Eddy Visiting Nurse Association of the Capital Region," (A-02-97-01026)
September 28, 1999
Complete
Text of Report is available in PDF format (1.26 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out the Eddy Visiting Nurse Association (Eddy) claimed Medicare payments of at least $1.1
million that were ineligible for Medicare reimbursement. The majority of the improper claims were for services which were
not, in the opinion of medical experts, reasonable and necessary, services that did not have valid physician orders, services
where there was no evidence that a medical service was rendered or performed, and services which were rendered to beneficiaries
who, in the opinion of medical experts, were not homebound. In addition to a financial adjustment for $1.1 million, we
recommended that the Health Care Financing Administration (HCFA) take steps to ensure home health services billed to Medicare
by the Eddy have the proper authorization, appropriate supporting documentation, and are otherwise allowable for reimbursement.
These steps should include requiring the intermediary to monitor more closely the claims submitted by the Eddy and to conduct
subsequent periodic in-depth reviews of its claims. The HCFA concurred with our recommendations.